NO. ___

IN THE

UNITED STATES OF AMERICA ex rel.
MICHAEL RAY PERRY,
Petitioner,
v.
HOOKER CREEK ASPHALT & PAVING, LLC, OREGON
MAINLINE PAVING, LLC, J.C. COMPTON
CONTRACTOR, INC., HAP TAYLOR & SONS, INC.,
KNIFE RIVER CORPORATION – NORTHWEST, AND
CENTRAL OREGON REDI-MIX, LLC,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI
JEREMY L. FRIEDMAN
Counsel of Record
2801 Sylhowe Road
Oakland, CA 94602
(510) 530-9060
jlfried@comcast.net

August 2019

DEREK JOHNSON
Johnson, Johnson and
Schaller, PC.
975 Oak Street Suite 1050
Phoenix, AZ 85028
(602) 222-4160

Counsel for Petitioner

i
QUESTION PRESENTED
In a qui tam action brought under the False
Claims Act, 31 U.S.C. §3729 et seq., must the relator be
an insider with personal knowledge of the contractor’s
claim submissions to meet gateway Rule 9(b)
particularity pleading requirements?

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner, and Qui Tam Plaintiff-Appellant
below, is Michael Ray Perry (“Perry” or “relator”).
Respondents, and Defendants-Appellees below,
are:
Hooker Creek Asphalt & Paving, LLC,
Oregon Mainline Paving, LLC,
J.C. Compton Contractor, Inc.,
Hap Taylor & Sons, Inc.,
Knife River Corporation – Northwest, and
Central Oregon Redi-Mix, LLC.
Wildish Standard Paving Co. and Hamilton
Construction Co. were defendants in the district court
and were appellees in Perry’s earlier appeal to the
Ninth Circuit. Neither is an appellee in the most recent
Ninth Circuit proceedings or a respondent in this
Court.

iii
RELATED CASES
United States of America ex rel. Perry v. Hooker Creek
Asphalt Co. No. 6:08-cv-06307-HO, U.S. District
Court for the District of Oregon. Judgment
entered March 16, 2012.
United States of America ex rel. Perry v. Hooker Creek
Asphalt Co., No. 12-35278, U.S. Court of
Appeals for the Ninth Circuit. Judgment
entered March 27, 2014.
United States of America ex rel. Perry v. Hooker Creek
Asphalt Co. No. 6:08-cv-06307-MC, U.S. District
Court for the District of Oregon. Judgment
entered May 26, 2017.
United States of America ex rel. Perry v. Hooker Creek
Asphalt Co., No. 17-35524, U.S. Court of
Appeals for the Ninth Circuit. Judgment
entered April 8, 2019, and a timely petition for
panel rehearing and rehearing en banc was
denied on May 20, 2019.

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS BELOW . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTE AND RULE INVOLVED . . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
REASONS FOR GRANTING THE WRIT . . . . . . . 21
I.

The Decisions of the Lower Courts
in Perry’s Case Highlight the
Fractured Application of Rule 9(b)
in the False Claims Act Arena . . . . . 22

II.

This Case is the Best Vehicle Yet
to Resolve Persistent Conflicts and
Intolerable Uncertainties in the
False Claims Act Arena . . . . . . . . . . . 30

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

v
TABLE OF APPENDIX
Memorandum, United States of America
ex rel. Perry v. Hooker Creek Asphalt Co.,
No. 17-35524, U.S. Court of Appeals for
the Ninth Circuit, filed April 8, 2019 . . . . . 1a
Opinion and Order, United States of
America ex rel. Perry v. Hooker Creek
Asphalt Co., U.S. District Court for the
District of Oregon, filed May 26, 2017 . . . . . 4a
Order and Memorandum, United States
of America ex rel. Perry v. Hooker Creek
Asphalt Co., No. 12-35278, U.S. Court of
Appeals for the Ninth Circuit, filed March
27, 2014 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15a
Memorandum (withdrawn), United States
of America ex rel. Perry v. Hooker Creek
Asphalt Co., No. 12-35278, U.S. Court of
Appeals for the Ninth Circuit, filed
October 24, 2013 . . . . . . . . . . . . . . . . . . . . . 22a
Order, United States of America ex rel.
Perry v. Hooker Creek Asphalt Co, U.S.
District Court for the District of Oregon,
filed March 16, 2012 . . . . . . . . . . . . . . . . . . 26a
Order, United States of America ex rel.
Perry v. Hooker Creek Asphalt Co., No.
17-35524, U.S. Court of Appeals for the
Ninth Circuit, filed May 20, 2019 . . . . . . . 37a
Third Amended Qui Tam Complaint . . . . . 38a

vi
Cases

TABLE OF AUTHORITIES

Chesbrough v. VPA, P.C., 655 F.3d 461
(6th Cir. 2011) . . . . . . . . . . . . . . . . . . . . . . . . 26
Ebeid ex rel. United States v. Lungwitz,
616 F.3d 993 (9th Cir. 2010) . . . . . 19, 28, 29
Hopper v. Solvay Pharmaceuticals, Inc.,
588 F.3d 1318 (11th Cir. 2009), cert denied
561 U.S. 1006 (2010) . . . . . . . . . . . . . . . . . . 23
Tellabs v. Makor Issuer Rights, 551 U.S. 308
(2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States DOT ex rel. Arnold v. CMC Eng’g,
564 F.3d 673 (3rd Cir. 2009) . . . . . . . . . . . . 33
United States ex rel. Atkins v. McInteer,
470 F.3d 1350 (11th Cir. 2006) . . . . . . . . . . 23
United States ex rel. Bledsoe v. Community
Health Systems, 501 F.3d 493
(6th Cir. 2007) . . . . . . . . . . . . . . . . . . . . . 16, 22
United States ex rel. Chorches v. Am. Med. Response,
Inc., 865 F.3d 71 (2d Cir. 2017) . . . . . . . 25, 27
United States ex rel. Clausen v. Laboratory Corp.
of Am., Inc., 290 F.3d 1301 (11th Cir. 2002),
cert. denied, 537 U.S. 1105 (2003) . . . . . . . . 23
United States ex rel. Compton v. Midwest
Specialties, 142 F.3d 296 (6th Cir. 1998) 33, 34

vii
United States ex rel. Duxbury v. Ortho Biotech
Prods., L.P., 579 F.3d 13 (1st Cir. 2009),
cert denied 561 U.S. 1005 (2010) 15-17, 22, 25
United States ex rel. Grubbs v. Kanneganti,
565 F.3d 180 (5th Cir. 2009) . . . 16, 17, 22, 25
United States ex rel. Hopper v. Anton,
91 F.3d 1261 (9th Cir. 1996) . . . . . . . . . . . . . 3
United States ex rel. Hunt v. Merck-Medco
Managed Care, 336 F. Supp. 2d 430
(E.D. Pa 2004) . . . . . . . . . . . . . . . . . . . . . . . . 13
United Sates ex rel. Hagood v. Sonoma County
Water Agency, 929 F.2d 1416
(9th Cir. 1991) . . . . . . . . . . . . . . . . . . . . . . . . 34
United States ex rel. Ibanez v. Bristol-Myers
Squibb Co., 874 F.3d 905 (6th Cir. 2017),
cert denied 138 S.Ct. 2582 (May 2018) . . . . 26
United States ex rel. Joshi v. St. Luke’s Hosp.,
Inc., 441 F.3d 552 (8th Cir. 2006)
cert denied 549 U.S. 881 (2006) . . . . . . . 16, 23
United States ex rel. Lee v. SmithKline
Beecham, Inc., 245 F.3d 1048
(9th
Cir. 2001) . . . . . . . . . . . . . . . . . . 19, 20, 28, 29
United States ex rel. Lusby v. Rolls-Royce Corp.,
570 F.3d 849 (7th Cir. 2009) . . . . . . . . . . . . 17
United States ex rel. Maxfield v. Wasatch
Constructors, 2005 U.S. Dist. LEXIS
10162 (D. Utah 2005) . . . . . . . . . . . . . . . . . 33

viii
United States ex rel. Nargol v. DePuy Orthopaedics,
Inc., 865 F.3d 29 (1st Cir. 2017),
cert denied 138 S.Ct. 1551 (2018) . . . . . . . . 25
United States ex rel. Prather v. Brookdale
Senior Living Cmtys., Inc., 838 F.3d 750
(6th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . 26, 27
United States ex rel. Roop v. Hypoguard USA,
Inc., 559 F.3d 818 (8th Cir. 2009) . . . . . . . . 16
United States ex rel. Sikkenga v. Regence
BlueCross BlueShield, 472 F.3d 702
(10th Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . 22
United States ex rel. Snapp, Inc. v. Ford Motor
Co., 532 F.3d 496 (6th Cir. 2008) . . . . . . . . . 16
United States ex rel. Tamanaha v. Furukawa Am., Inc..
445 Fed. Appx. 992 (9th cir. 2011) . . . . . . . . 20
United States ex rel. Totten v. Bombardier Corp.,
286 F.3d 542 (D.C. Cir. 2002) . . . . . . . . . . . . . 3
United States ex rel. Vatan v. QTC Med. Servs.,
Inc., 721 F. App’x 662 (9th Cir. 2018) . . 20, 29
United States ex rel. Walker v. R&F Props.
of Lake County, Inc., 433 F.3d 1349
(11th Cir. 2005), cert. denied,
549 U.S. 1027 (2006) . . . . . . . . . . . . . . . . . . 23
United States ex rel. Yesudian v. Howard
University, 153 F.3d 731 (D.C. Cir. 1998) . . 13
United States v. Aerodex, 469 F.2d 1003
(5th Cir. 1972) . . . . . . . . . . . . . . . . . . . . 33, 34

ix
United States v. American Elevator Co.,
1989 U.S. Dist. LEXIS 1391 (E.D. PA 1989) 13
United States v. Azzarelli Construction Co.,
647 F.2d 757 (7th Cir. 1981) . . . . . . . . . . . . 13
United States ex rel. Chase v. HPC Healthcare, Inc.,
723 F. App'x 783 (11th Cir. 2018),
cert denied 139 S.Ct. 69 (Oct. 2018) . . . . 26, 27
United States v. Macomb Contracting Corp.,
1988 U.S. Dist. LEXIS 17608
(M.D. Tenn. 1988) . . . . . . . . . . . . . . . . . . . . . 13
United States v. National Wholesalers,
236 F.2d 944 (9th Cir. 1956),
cert. denied 353 U.S. 930 (1957) . . . . . . . . . 33
United States v. Science Applications Intern’l
Corp. (SAIC), 626 F.3d 1257
(D.C. Cir. 2010) . . . . . . . . . . . . . . . . . . . . . . 33
United States v. Photogrammetric Data Servs.,
103 F. Supp. 2d 875 (E.D. VA 2000) . . . . . . 13
United States v. United Healthcare Ins. Co.,
848 F.3d 1161 (9th Cir. 2016) . . . . . . . . . . . 29
Universal Health Services v. United States
ex rel. Escobar, 136 S. Ct. 1989 (2016) 7, 32, 33
Varljen v. Cleveland Gear Co., 250 F.3d 426
(6th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . 35, 35
Vt. Agency of Natural Res. v. United States
ex rel. Stevens, 529 U.S. 765 (2000) . . . . . . . . 3

x
Statutes
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
False Claims Act, 31 U.S.C. §3729. . . . . . . . . 2, 3, 13
False Claims Act, 31 U.S.C. §3730. . . . . . . . . . . . . . 3
Transportation Act, 23 U.S.C. §109

. . . . . . . . . . . 31

Rules
Federal Rules of Civil Procedure, Rule 9(b). . passim
Regulations
23 C.F.R. §637.207

......................... 9

Legislative History
S. Rep. No. 99-345, reprinted in 1986
U.S.C.C.A.N. 5266 . . . . . . . . . . . . . . . . . . 3, 13
Other Authorities
Brief for the United States as Amicus Curiae,
United States ex rel. Nathan v. Takeda
Pharm. N. Am., Inc.,
No. 12-1249 (Feb. 2014) 4, 5, 17, 18, 24, 25, 27

xi
Brief for the United States as Amicus Curiae,
Ortho Biotech Prods., L.P. v. United States
ex rel. Duxbury,
No. 09-654 (May 2010) . . . . . . . . . 4, 5, 22, 23
Petition for a Writ of Certiorari, United States
ex rel. Polukoff v. St. Mark's Hosp.
No. 18-911 (Jan. 2019) . . . . . . . . . . . . . . . . . 29
Scholz, “Forensic Investigation of MoistureRelated Pavement Failures on
Inter state Highways in O r egon, ”
Transportation Research Board,
90th Ann. Mt. (2011) . . . . . . . . . . . . . . . . . . 32

1
PETITION FOR A WRIT OF CERTIORARI
Michael Ray Perry respectfully petitions this
Court for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Ninth
Circuit in this case.
OPINIONS BELOW
The Ninth Circuit’s unreported opinion is
available at 765 Fed. Appx. 318 and is reproduced at
App. 1a-3a. The district court’s unreported opinion
dismissing the third amended complaint is available at
2017 U.S. Dist. LEXIS 81175 and is reproduced at App.
4a-14a. The Ninth Circuit’s unreported opinion in
Perry’s earlier appeal is available at 565 Fed. Appx.
669 and is reproduced at App. 15a-21a. The district
court’s unreported opinion dismissing the second
amended complaint is available at 2012 U.S. Dist.
LEXIS 35898 and is reproduced at App. 26a-36a.
JURISDICTION
Judgment of the court of appeals was entered on
April 8, 2019. A timely petition for rehearing and for
rehearing en banc was denied on May 20, 2019,
reproduced at App. 37a. This Court has jurisdiction
pursuant to 28 U.S.C. §1254(1).

2
STATUTE AND RULE INVOLVED
False Claims Act
31 U.S.C. § 3729(a)(1)
[A]ny person who (A) knowingly presents, or causes to be
presented, a false or fraudulent claim for
payment or approval; [or]
(B) knowingly makes, uses, or causes to
be made or used, a false record or
statement material to a false or
fraudulent claim; . . .
is liable to the United States Government
for a civil penalty . . . plus 3 times the
amount of damages which the
Government sustains because of the act
of that person.
Rule 9(b) of the Federal Rules of Civil Procedure
Fraud or Mistake; Conditions of Mind. In
alleging fraud or mistake, a party must
state with particularity the
circumstances constituting fraud or
mistake. Malice, intent, knowledge, and
other conditions of a person’s mind may
be alleged generally.

3
INTRODUCTION
The False Claims Act, 31 U.S.C. §§3729 et seq.,
“was enacted during the Civil War with the purpose of
forfending widespread fraud by government
contractors who were submitting inflated invoices and
shipping faulty goods to the government.” United
States ex rel. Hopper v. Anton, 91 F.3d 1261, 1265-66
(9th Cir. 1996). The Act was amended in 1986 to undo
overly restrictive judicial interpretations, and to make
it “the Government’s primary litigative tool for
combating fraud” “in modern times.” S. Rep. No.
99-345, at 2 (1986), 1986 U.S.C.C.A.N. 5266.
Qui tam provisions authorize private persons –
“relators” – to stand in the shoes of the government
and enforce the statute’s proscriptions. If a relator
brings a qui tam action, the complaint is initially filed
under seal and served upon the government, together
with “substantially all material evidence and
information the [relator] possesses.” 31 U.S.C.
§3730(b)(2). The government receives the majority of
any resulting settlement or judgment, but the relator
is entitled to a share of the proceeds for prosecuting the
action. Vt. Agency of Natural Res. v. United States ex
rel. Stevens, 529 U.S. 765, 769-770 (2000); §3730(d)(1)(2). Lower courts have recognized that the qui tam
provision is “a powerful tool that augments the
government’s limited enforcement resources by
creating a strong financial incentive for private citizens
to guard against efforts to defraud the public fisc.”
United States ex rel. Totten v. Bombardier Corp., 286
F.3d 542, 546 (D.C. Cir. 2002).

4
In light of the importance of the False Claims
Act – and the need for uniformity in its enforcement –
this Court has reviewed and resolved several conflicts
among the lower courts regarding its application, often
in a unanimous voice. It has as yet, however, declined
to grant a writ of certiorari in the one area under the
Act where review is most needed: application of Rule
9(b) pleading standards. In particular, lower courts
have splintered over the question whether the relator
must have personal knowledge of – and, at the initial
pleading stage, make particular allegations concerning
– the specific claim submissions at issue in the case.
As demonstrated by the steady and continuing
flow of petitions for writs of certiorari on the issue,
brought by qui tam plaintiffs and defendants, the
conflicting rulings between and within the lower
circuits will not resolve without guidance from this
Court. In response to this Court’s requests for its
views, the Solicitor General of the United States has
twice acknowledged the circuit courts have reached
“inconsistent conclusions about the precise manner in
which a qui tam relator may satisfy the requirements
of Rule 9(b).” Brief for the United States as Amicus
Curiae at 10, United States ex rel. Nathan v. Takeda
Pharm. N. Am., Inc., No. 12-1249 (U.S. Feb. 2014)
(hereinafter “U.S. Nathan Br.”); see Brief for the
United States as Amicus Curiae at 9, Ortho Biotech
Prods., L.P. v. United States ex rel. Duxbury, No.
09-654 (U.S. May 2010) (hereinafter “U.S. Duxbury
Br.”). The United States recommended denial of the
petitions in those two cases because neither was a
suitable vehicle for review. It agreed, however, that the

5
issue was of national significance, and that the Court’s
review likely would be “warranted in an appropriate
case” if the conflict persists. U.S. Nathan Br., at 10;
U.S. Duxbury Br., at 9.
According to the Solicitor General, the overall
body of appellate precedent creates “substantial
uncertainty” on whether, to meet Rule 9(b)
requirements, a relator must plead specific requests for
payment with particularity. U.S. Duxbury Br., at 16.
That uncertainty hinders the ability of
qui tam relators to perform the role that
Congress intended them to play in the
detection and remediation of fraud
against the United States. Qui tam
complaints under the FCA are often filed
by the defendants’ employees and former
employees. Such relators may know that
their employers are receiving funds from
the United States, and they may be privy
to detailed information indicating that
the employers’ actual practices differ
markedly from their representations to
the federal government. Under the
reading of Rule 9(b) that petitioner
advocates, however, those relators would
be disabled from filing suit under the
FCA unless they were also familiar with
the minutiae of their employers’ billing
practices.
Subjecting qui tam relators to that
requirement is especially unwarranted

6
because it attaches elevated significance
to the relator’s awareness of facts that in
most instances are already known to the
government. The government rarely if
ever needs a relator’s assistance to
identify claims for payment that have
been submitted to the United States.
Rather, relators who make valuable
contributions to the government’s
enforcement efforts typically do so by
bringing to light information, outside the
four corners of the claims for payment,
that shows those claims to be false.
Requiring qui tam complaints to identify
specific false claims would not
meaningfully assist the government’s
enforcement efforts. To the contrary, the
likely effect of such a requirement would
be to discourage the filing of qui tam suits
by relators who would otherwise have
both the means and the incentive to
expose acts of fraud against the United
States. [Id., at 16-17.]
Perry’s 10-year pleading battle in the lower
courts – involving multiple rulings under Rule 9(b) and
two appeals to the Ninth Circuit – shows that the
conflict persists among and within the circuits. His
case perfectly frames the issue, presenting the best
vehicle yet for the Court to finally address and resolve
the question. Perry was a longtime employee in quality
assurance for Oregon Department of Transportation
(ODOT), where he witnessed systemic misconduct on

7
quality control by highway contractors building
federally-funded roads and bridges in Oregon. He
documented persistent failure to conduct appropriate
tests, knowing omission of inadequate results,
doctoring of test results, failure to rework sections of
materials known to be failing, use of substandard and
failing materials to complete projects, contract change
orders obtained on false information or to cover up
failing materials, and deliberate failure to use properly
calibrated equipment. App. 56a-57a, ¶43. Such
misconduct involving federal funds fits squarely within
the ambit of the False Claims Act, not only because the
contractors created “false records” material to the
claim for payment, but also because customary
contractor invoices were “half-truths” which “render
the defendant’s representations misleading with
respect to the goods or services provided.” Universal
Health Services v. United States ex rel. Escobar, 136 S.
Ct. 1989, 1999-2000 (2016).
Despite personal knowledge, documentation and
detailed allegations regarding the contractors’ false
and misleading conduct, the district court below
dismissed Perry’s complaint at the pleading stage
because Perry was not an “insider” with personal
knowledge of defendants’ claim submissions. The court
held “‘insider’ knowledge of the actual claims is critical
to any False Claims Act claim” and it found: “Perry is
not an ‘insider’ within the meaning of the Act.” App.
9a-10a. See also ER 13a (“It is clear that Perry is
unable to properly plead a False Claims Act claim due
to his status as an ‘outsider’ with no access to the
claims at issue”).

8
The Ninth Circuit affirmed, agreeing with the
district court’s dismissal without discussion,
concluding that Perry therefore failed to meet Rule 9(b)
standards. App. 3a. It reached this disposition despite
the opinion of a panelist in the prior appeal that Perry
“provides several specific examples of incidents that,
standing alone, are sufficiently detailed to satisfy the
requirements of Rules 8(a) and 9(b).” Id., 24a. Although
the prior panel had granted Perry’s petition for
rehearing – immediately after this Court denied the
petition in Nathan – and it had granted leave for Perry
to ”narrow” his claims, on remand the district court
dismissed Perry’s amended complaint anyway, citing
the dissenting panelist in Perry’s earlier appeal.
The conflicting and confusing decisions by the
lower courts in Perry’s case demonstrate the need for
a definitive ruling from this Court on whether Rule
9(b) bars a relator from bringing a qui tam action when
he or she lacks personal knowledge of defendants’
claim submissions. Perry’s petition is focused on this
single question, one that has spawned an enormous
body of conflicting lower court rulings. In Perry’s case,
the lower court found Perry’s status as an “outsider”
without direct knowledge of the contractors’ invoices
dispositive of his claims. But an employee with access
to billing information would not learn of the violations
in this case because they happened out in the field.
Unlike the petitions in Duxbury, Nathan and several
other cases where this Court’s review of the circuit
fracture was sought, Perry’s petition for a writ of
certiorari presents the best vehicle yet for much needed
guidance from this Court.

9

STATEMENT
1. For nearly 25 years, Perry was employed by
ODOT in Region 4 (Bend). Starting in 1999, Perry was
Assistant Quality Assurance Coordinator, responsible
for significant aspects of monitoring compliance with
specifications and contract requirements. ODOT is
required by 23 C.F.R. §637.207 to institute and
maintain a quality assurance program, which conducts
sampling and testing of construction material for
acceptance and verification. App. 46a-47a, ¶¶18 & 19.
ODOT has limited resources in relation to the contract
work. Its monitoring is sporadic and does not detect all
non-compliance. Nor does ODOT always take effective
remedial steps when non-compliance is found.
Notwithstanding ODOT’s efforts, private contractors
are responsible for their own quality control, including
frequent duties for testing and documentation.
Limitations in the state’s quality assurance
enforcement do not relieve contractors of their quality
control obligations. Id., 51a-53a, ¶¶29-33.
In the operative complaint, App. 38a-123a, Perry
makes particular allegations of the “who, what, where,
when and how” of the contractors’ material falsities
and fraudulent conduct. Perry satisfies the “who”
requirement by identifying the entity named as a
defendant to each claim. Although not required of
relators under Rule 9(b), Perry also pleads the names
of involved individual employees within the
defendants’ organizations and several contracting
officers, when known to him.

10
Perry satisfies the “what” requirement by
identifying particular circumstances of alleged noncompliant construction materials, precise test results
which defendants’ falsified, and specific efforts to cover
up its conduct and avoid contract adjustments on 21
federally-funded highway construction projects. Perry
names the exact specifications that were not met, and
he identifies the precise verification tests which the
defendants’ falsified. For example, on US 26, Laughlin
Road Project (App. 75a-77a), Hooker Creek paid a
substantial bribe to Bruce Dunn, an ODOT inspector
working on the project manager’s staff, in the form of
a free home driveway consisting of high quality
materials. Hooker Creek was supposed to use those
materials on the project, but instead it used
substandard materials from a commercial source that
were not tested for specification compliance. On US 97,
China Hat Project (App. 81a-86a), Hooker Creek
knowingly used a malfunctioning gauge to falsely
report passing results; it used fake numbers to report
compaction; and it made false statements of
compliance with respect to specific verifications. Perry
identifies and describes specific failed tests and other
false statements of compliance.
On OR 38, Silver Creek Bridge Project (App.
106a-107a), Knife River knew materials provided had
failures in earthwork and concrete, but it purposefully
failed to notify ODOT when the project began, to avoid
density test verification. On Grandview Project (App.
98a-99a), Knife River submitted invoices for $1.17
million, even though it failed to achieve compaction.
Quoting specifications, Perry details a scheme to use

11
rollers that were too small, and he explains how the
use of smaller rollers achieved compaction with less
weight, compacting too easily. On US 97 Riley Bridge
Project (App. 99a-100a), Knife River failed to conduct
more than one concrete verification test, and the one
test showed failures. On Or 16: Glacier-Highland
Project (App. 100a-102a), Knife River submitted
invoices for over $10 million, knowing about failing
materials, and claiming a performance bonus. Through
its technician, defendant fraudulently used a moisture
gauge, mis-calibrated to allow a bigger bonus, even
though an original test showed failure.
On Redmond Reroute Project (App.87a-94a),
Oregon Mainline created false and misleading reports
that it had conducted the required quality control and
that materials provided had met specification; it falsely
stated the Nuclear Moisture Density Gauge was not
accurate in use on lightweight aggregate; and it
produced approximately 70 quality control tests that
falsely reported passing materials. On Biggs-Wasco &
Grass Valley project (App. 94a-95a), J.C. Compton
performed only 24 quality control tests, despite
knowing 53 such tests were required; and it knowingly
violated HMAC Production specifications, using a false
record of passing results when three of four
verifications failed. On Cotton Wood project (App. 96a98a, Compton knowingly placed damaged mix on the
project. After aggregate samples failed, it cherry-picked
samples it knew would pass product compliance tests,
and submitted false quality control documents. This
contractor claimed and received a bonus, knowing that
it had provided a substandard product.

12
Perry satisfies the “where” and “when”
requirements on each of the 21 projects. He lists the
contract names (which identify locations), the dates
when each contract was awarded (and thus work
began), the time frames when they were constructed
with non-compliant materials, and the dates when
defendants submitted supporting documentation.
Perry satisfies the “how” by setting forth specific
facts and explanations for why the misconduct on each
project resulted in requests for payment when the
defendant knew material specifications were not met.
Perry also identifies each scheme by each defendant to
falsify verification test results, cherry-pick testing
locations, pave over failed materials to avoid tests and
lie about the calibration and use of equipment.
Against two contractor groups (J.C.
Compton/Oregon Mainline and Knife River), Perry
pleads additional facts showing a consistent course of
fraudulent conduct outside ODOT Region 4 where
Perry worked. App. 114a-117a, ¶¶156-161. These
allegations included information on (a) frequency and
consistency in substandard materials and fraudulent
conduct witnessed by relator within Region 4; (b)
statewide consistency in ODOT oversight failures, not
restricted to Region 4; (c) statewide consistency in the
processes for claiming funds for non-compliant work on
road contracts; (d) statewide consistency in premature
failure of roads and bridges, premature wear, excessive
safety concerns and high repair and replacement costs;
and (e) corporate cultures at these contractors that are
likely to produce the same sorts of violations in other
regions. Id., ¶161(a)-(e).

13
Perry did not work in billing departments, but
he nevertheless pleads significant detail on defendants’
claims for payment. In ¶49 (App. 59a-61a), Perry lists
each contract or project, the award date, the total
amounts claimed, and the date when work was
completed and documentation submitted. In ¶50 (App.
61a-62a), he alleges generally the fact of defendants’
claims submissions, including “claims, representations,
certifications and reports regarding the quality and
quantity of the work performed and materials
provided.” In ¶51 (App. 62a), Perry alleges that each
bill or request for payment to ODOT constituted “a
‘claim,’ under former §3729(b)” which was amended in
1986 to include invoices to grantees, in part to overturn
the restrictive ruling in United States v. Azzarelli
Construction Co., 647 F.2d 757 (7th Cir. 1981). See S.
Rep. No. 99-345, at 22, 1986 U.S.C.C.A.N., 5266, 5287.1

Azzarelli involved a federal highway contractor who
argued it could not be liable for submitting false claims to the
state. The Seventh Circuit held no “claims” were made upon the
federal government. Congress amended the Act to change that
very holding. Legislative history makes clear a false claim could
be submitted to and paid by the state, so long as there is partial
federal funding. Id., at 5286-87. Based on this history, courts
uniformly hold false claims may be made for federal funds from
parties other than the federal government. See United States ex
rel. Yesudian v. Howard University, 153 F.3d 731 (D.C. Cir. 1998);
United States ex rel. Hunt v. Merck-Medco Managed Care, 336 F.
Supp. 2d 430, 443 (E.D. Pa 2004); United States v.
Photogrammetric Data Servs., 103 F. Supp. 2d 875 880 (E.D. Va
2000); United States v. American Elevator Co., 1989 U.S. Dist.
LEXIS 1391 (E.D. Pa 1989); United States v. Macomb Contracting
Corp., 1988 U.S. Dist. LEXIS 17608 at *113.(M.D. Tenn. 1988).
1

14
2. a. When Perry’s action was filed initially, it
was assigned to District Court Judge Michael Hogan.
At that time, the federal courts stood at a crossroads in
Rule 9(b) jurisprudence. In particular, courts were
divided over whether relators must be “insiders” with
personal knowledge of false billings for federal funds.
Judge Hogan sided with the restrictive view, which
would limit the pool of would-be relators to those with
knowledge of the actual claims for payment submitted
to the government.
In his second amended complaint, Perry alleged
a specific scheme and pattern of systemic conduct by
defendants across Oregon, pleading 25 paragraphs of
“representative examples.” Judge Hogan dismissed this
complaint without leave to amend, holding Rule 9(b)
required relators to allege “the ‘who, what, when,
where, and how’ to support each element of the alleged
False Claims Act violations with regard to each false
claim supposedly made by each defendant.” App. 33a.
The court below rejected Perry’s attempt to satisfy
Rule 9(b) in a case of systemic fraud through
“representative examples,” holding that is appropriate
only in cases of “cookie-cutter” fraud. App. 31a. In so
doing, the court found Perry’s allegations “lacked the
necessary detail” because Perry (1) did not have access
to defendants’ billing records so could not identify
specific bills or invoices; (2) could not tie alleged
misconduct to individuals within the companies; and
(3) purportedly identified only the general area and
time periods for the contract work rather than the
“when and where” of fraud. App. 34a-35a.

15
2. b. Perry appealed Judge Hogan’s decision to
the Ninth Circuit. On October 24, 2013, a divided panel
initially affirmed judgment. App. 22a-25a. Together,
the two short opinions exemplify the divide among
circuits and between jurists over Rule 9(b) in False
Claims Act cases. Without addressing any facts or
circumstances alleged, Judge Callahan – writing for
the majority – stated Perry “fails to allege with
particularity the ‘who, what, when and how’ of any
alleged incident of fraud.” App. 23a.
Judge Fletcher wrote separately. He agreed with
Judge Hogan that representative examples were
appropriate only in cases of “cookie-cutter” fraud, but
he found Perry had provided “several specific examples
of incidents that, standing alone, are sufficiently
detailed to satisfy the requirements of Rules 8(a) and
9(b).” In his opinion, these “specific instances would
state plausible claims under the False Claims Act if
brought individually” rather than as representative
examples of systemic fraud. App. ER 24a.
Following the initial panel decision, Perry
petitioned for rehearing. He argued the majority had
overlooked particular allegations of representative
examples, and he requested that he be permitted to go
forward on them as individual claims. He cited and
discussed Rule 9(b) rulings from other circuits with
which the majority disposition conflicted.
United States ex rel. Duxbury v. Ortho Biotech
Prods., L.P., 579 F.3d 13, 30 (1st Cir. 2009)
(relator need not state details of each false claim
in his complaint), cert denied 561 U.S. 1005

16
(2010). In Duxbury, it was sufficient to identify,
“as to each of the eight medical providers (the
who), the illegal kickbacks (the what), the rough
time periods and locations (the where and
when), and the filing of the false claims
themselves.” Id.
United States ex rel. Joshi v. St. Luke’s Hosp.,
Inc., 441 F.3d 552, 556-557 (8th Cir. 2006)
(relators need not allege each and every fact for
each false claim); United States ex rel. Roop v.
Hypoguard USA, Inc., 559 F.3d 818 (8th Cir.
2009) (same). In these cases, the Eighth Circuit
permitted use of representative examples to
plead systemic False Claims Act violations over
multiple years or multiple customers.
United States ex rel. Snapp, Inc. v. Ford Motor
Co., 532 F.3d 496 (6th Cir. 2008) (fraud which is
“complex and far-reaching” may be pled through
“characteristic examples” that are “illustrative”
of the class of all claims); United States ex rel.
Bledsoe v. Community Health Systems, 501 F.3d
493 (6th Cir. 2007) (same). The “who” of Rule
9(b) is satisfied by identifying the corporation;
names of individual employees are not required.
See Bledsoe, 501 F.3d at 506 (“[A]bsent from the
. . . requirements is the identity of the
employee”).
United States ex rel. Grubbs v. Kanneganti, 565
F.3d 180, 190 (5th Cir. 2009) (“time, place,
contents, and identity” standard is not a
“straitjacket for Rule 9(b),” which requires

17
“context specific and flexible” application “to
achieve the remedial purpose of the ... Act.”
False Claim Act). In Grubbs, the Fifth Circuit
held a relator need not allege the details of any
actually submitted false claim if particular
details of a scheme are paired with reliable
indicia that lead to a strong inference that
claims were actually submitted.
United States ex rel. Lusby v. Rolls-Royce Corp.,
570 F.3d 849 (7th Cir. 2009) (relator need not be
an insider at the defendant’s billing department
or specify the details of an actual claim to satisfy
Rule 9(b)). In Lusby, the Seventh Circuit held it
is not “essential for a relator to produce the
invoices (and accompanying representations) at
the outset of the suit” and “a pleading [need not]
exclude all possibility of honesty in order to give
the particulars of fraud. It is enough to show, in
detail, the nature of the charge, so that vague
and unsubstantiated accusations of fraud do not
lead to costly discovery and public obloquy.” Id.
at 854-855.
While Perry’s petition was pending, the petition
for a writ of certiorari was filed in Nathan, where this
Court had invited the Solicitor General to express the
United States’ views. The amicus brief in Nathan cited
many of the same authorities discussed in Perry’s
petition, including Grubbs, Lusby, and Duxbury. Perry
pointed out where the government argued rigid Rule
9(b) standards would “hinder the ability of qui tam
relators to perform the role that Congress intended
them to play in the detection and remediation of fraud

18
against the United States.” U.S. Nathan Br., at 15. In
the government’s view, a relator such as Perry need
not know the “minutiae” of defendants’ billings; for to
attach “dispositive significance” to the relator’s
awareness of such details – often already known to the
government – would discourage persons with the
“means and incentives” to expose the fraud. Id., at 16.
On March 27, 2014, with two panelists voting in
favor of rehearing, the Ninth Circuit granted Perry’s
petition, withdrew the disposition and reversed the
judgment. App. 15a-18a. Writing for the majority,
Judge Fletcher found Perry had described a “wide
variety of alleged violations” rather than a “consistent
course of fraudulent conduct,” and thus could not use
representative examples to satisfy Rule 9(b). But the
panel majority held that Perry’s complaint contains
specific examples that, if brought as individual claims,
could potentially provide sufficient particularity to
satisfy Rule 9(b). The panel granted Perry’s petition
and voted to “remand to allow him an opportunity to
amend to narrow his complaint.” App. 18a.
Judge Callahan wrote separately in dissent.
Believing relators must have “access to information on
billing” in order to meet Rule 9(b) requirements, she
would have held Perry’s amendment to be futile. App.
18a-21a. As the district court had, Judge Callahan
focused exclusively on Perry’s lack of access to claim
submissions, without addressing specific facts alleged
regarding the contractors’ misconduct in the field.
2. c. Upon remand, the case was reassigned to
Judge Michael McShane, and Perry filed his third

19
amended complaint against Respondents. Despite
Perry’s detailed individual claims, the district court
dismissed again, quoting at length to the previous
opinions of Judge Hogan in the district court and the
dissenting opinion of Judge Callahan on the prior
appeal. App. 26a-36a. The court below did not address
the granting of Perry’s rehearing petition, the brief of
the United States in Nathan or the conflict among the
circuits created by the courts’ rulings.
Dismissing Perry’s complaint under Rule 9(b),
the district court imposed a non-textual requirement
that relators be “insiders” with personal knowledge of
claim submissions. It held “‘insider’ knowledge of the
actual claims is critical to any False Claims Act claim”
and he found: “Perry is not an ‘insider’ within the
meaning of the Act.” App. 9a-10a. See also id., at 13a
(“It is clear that Perry is unable to properly plead a
False Claims Act claim due to his status as an
‘outsider’ with no access to the claims at issue”); 14a,
n.2 (“Perry’s lack of direct knowledge regarding the
claims is fatal”). The court below referred generally to
the False Claims Act, but did not cite any statutory
provision employing the term “insider.”
Dismissing Perry’s complaint, the court below
accepted the proposition that lies at the heart of the
judicial schism: the belief that allegations of claim
submissions made on information and belief present a
problem for one “bringing a claim under the False
Claims Act.” App. 7a. Judge McShane attributed this
to the Ninth Circuit decision in Ebeid ex rel. United
States v. Lungwitz, 616 F.3d 993 (9th Cir. 2010), but he
did not address contrary rulings in United States ex rel.

20
Lee v. Beecham Clinical Labs., 245 F.3d 1048 (9th Cir.
2001) and United States ex rel. Tamanaha v. Furukawa
Am., Inc., 445 Fed. App’x 992, 994 (9th cir. 2011). The
district court also did not yet have the benefit of the
Ninth Circuit’s unpublished decision in United States
ex rel. Vatan v. QTC Med. Servs., Inc., 721 F. App’x
662, 663-64 (9th Cir. 2018) (“The district court’s
requirement to the contrary would vitiate the False
Claims Act, by excluding many whistle-blowers who –
as here – allege insider knowledge of wrongdoing that
few others would be positioned to reveal and solely lack
access to the corporate documents outlining the precise
nature of the company’s obligations”).
2. d. Perry appealed again, asking the Ninth
Circuit to consider a published opinion on the key
question that had so conflicted rulings between the
circuits and within the Ninth: the district court’s
dismissal of Perry’s detailed qui tam because – in its
view – “Perry is not an insider within the meaning of
the Act.” The Second, Third, Fifth, Seventh, Tenth and
D.C. Circuits – as well as some of the vacillating
opinions within the Ninth Circuit – had rejected the
idea that relators must have personal knowledge of
defendants’ billings invoices and plead facts of
particular claim submissions. Despite substantial
briefing and argument – and the draw of Judge
Fletcher from the first appeal – the panel affirmed
under Rule 9(b) without a discussion of any of Perry’s
allegations, in an unpublished disposition. App. 3a.
Perry’s petition for panel rehearing and for rehearing
en banc was denied, App. 37a, and this petition for a
writ of certiorari followed.

21
REASONS FOR GRANTING THE WRIT
The Court should grant certiorari to resolve an
issue that continues to fracture the lower courts:
proper application of Rule 9(b) standards in False
Claims Act cases. In this case, after 10 years of motion
briefing and appeals, the lower court held that relator
could not satisfy gateway pleading standards because
Perry did not work as an insider at the contractors’
billing departments. This non-textual requirement that
relator’s be “insiders” able to plead particular facts of
defendants’ claim submissions lies at the core of
recurring petitions for writs of certiorari in this Court.
It has not only divided the circuit courts of appeals, it
has sewn much unpredictability in the district courts
and confusion among qui tam litigants.
The question of proper pleading standards is
raised in practically every False Claims Act case, and
often is outcome dispositive. Fulfillment of the lofty
purposes of the Act turns on the balance of the issue’s
resolution. The government relies on relators to bring
forward information regarding fraudulent schemes on
federally-funded grants and programs. A restrictive
application of Rule 9(b) standards in this case resulted
in dismissal of Perry’s claims – despite revised
particularized pleading of the defendants’ misconduct
in quality control – because he was not familiar with
the “minutiae” of the contractors’ invoices. This rule –
employed to various degrees in conflicting ways
between the circuits – only discourages relators like
Perry from coming forward, let alone undertaking the
substantial effort required to litigate qui tam actions
and recover damages to the United States.

22
I.

The Decisions of the Lower Courts in
Perry’s Case Highlight the Fractured
Application of Rule 9(b) in the False Claims
Act Arena

During the decade that Perry has litigated the
application of Rule 9(b) to his qui tam claims, there has
been a steady flow of petitions for writs of certiorari, by
relators and defendants, seeking review of the issue. In
Duxbury, No. 09-694, the defendant – Ortho Biotech
Products – sought review of the question whether, to
satisfy Rule 9(b), relators must plead particular facts
associated with the claims alleged to be false or
fraudulent. In that case, the relator did not have access
to the documentation of medical provider claims, but in
the complaint had supplied approximate dates and
amounts of claims by eight medical providers. Citing
the Fifth Circuit in Grubbs, the First Circuit found
these allegations to be sufficient under a “more flexible
standard.” Duxbury, 579 F.3d at 30.
As pointed out in the government’s invited brief,
the First Circuit’s ruling conflicted with decisions in
other courts of appeals stating that “particular qui tam
complaints should be dismissed under Rule 9(b)
because relators had failed to identify specific false
claims for payment submitted to the government.” U.S.
Duxbury Br., at 15-16 (citing Bledsoe, 501 F.3d at 504
(6th Cir. 2007) (“We hold that pleading an actual false
claim with particularity is an indispensable element of
a complaint that alleges a FCA violation in compliance
with Rule 9(b).”); United States ex rel. Sikkenga v.
Regence BlueCross BlueShield, 472 F.3d 702, 727-728
(10th Cir. 2006) (affirming dismissal of cause of action

23
that failed “to identify any specific [false] claim”);
United States ex rel. Atkins v. McInteer, 470 F.3d 1350,
1358-1360 (11th Cir. 2006) (same); Joshi, 441 F.3d 552,
560 (8th Cir.) (requiring the relator to plead “some
representative examples” of false claims), cert. denied,
549 U.S. 881 (2006)).
The United States also pointed out that the
Eleventh Circuit had not consistently adhered to a
single vision of Rule 9(b) in this context, contrasting
decisions in that circuit that reached conflicting
conclusions. U.S. Duxbury Br., at 16 & n.5 (citing
Hopper v. Solvay Pharms., Inc., 588 F.3d 1318, 1326
(11th Cir. 2009) (holding that a relator must plead a
specific false claim to avoid dismissal of his complaint),
cert denied 561 U.S. 1006 (2010); United States ex rel.
Walker v. R&F Props. of Lake County, Inc., 433 F.3d
1349, 1360 (11th Cir. 2005) (permitting a relator to
allege detailed information about a fraudulent scheme
supporting an inference that the defendant submitted
false claims), cert. denied, 549 U.S. 1027 (2006), and
United States ex rel. Clausen v. Laboratory Corp. of
Am., Inc., 290 F.3d 1301, 1311 (11th Cir. 2002) (stating
that a qui tam complaint must contain “some indicia of
reliability . . . to support the allegation of an actual
false claim for payment”) (emphasis omitted), cert.
denied, 537 U.S. 1105 (2003).
As quoted supra at 5-6, the Solicitor General
agreed that requiring relators to have direct knowledge
of claim submissions – typically already known to the
government – would discourage relators from coming
forward and undermine the government’s efforts to

24
expose fraud. But jurisdictional issues in that Duxbury
meant it was not an appropriate vehicle for review.
In Nathan, No. 12-1349, the relator sought
review of the Fourth Circuit’s opinion that relators
must “allege with particularity that specific false
claims actually were presented to the government for
payment.” He claimed the decision deepened an
entrenched circuit conflict, with the Sixth, Eighth and
Eleventh Circuits joining it in the more stringent
approach. In its invited brief, the government
acknowledged that “lower courts have reached
conflicting results about the application of Rule 9(b) in
the [False Claims Act] context.” U.S. Nathan Br., at 11.
Noting recent decisions that were internally
inconsistent even within certain circuits, however, the
government suggested there was “some uncertainty
about the extent of the disagreement.” Id., at 13-14.
The United States advised against granting the
petition, because it was not an appropriate vehicle. Id.,
at 11. “Particularly because the issue continues to
percolate in the lower courts, this Court’s consideration
of the question presented should await a case in which
it would be outcome-determinative.” Id.
The proper application of Rule 9(b) in the
FCA context is thus a significant issue. If
one or more courts of appeals continue to
adhere to the rigid view that petitioner
attributes to the court below (but see pp.
13-14, supra), this Court’s intervention
may be warranted in a case where
application of that approach appears to

25
be outcome-determinative. This case,
however, is not a suitable vehicle in
which to take up the question.
In United States ex rel. Nargol v. DePuy
Orthopaedics, Inc., 865 F.3d 29, 41 (1st Cir. 2017), cert
denied 138 S.Ct. 1551 (2018), the relator alleged that
over a five year period, several thousand Medicare and
Medicaid recipients received certain medical implants,
with more than half falling “outside the specifications
approved by the FDA,” and “the latency of the defect
was such that doctors would have had no reason not to
submit claims for reimbursement for noncompliant
devices.” In this context, the First Circuit held “where
the complaint essentially alleges facts showing that it
is statistically certain that [defendant] caused third
parties to submit many false claims to the government,
we see little reason for Rule 9(b) to require Relators to
plead false claims with more particularity than they
have done here in order to fit within Duxbury’s ‘more
flexible’ approach to evaluating the sufficiency of fraud
pleadings in connection with indirect false claims for
government payment.” Id.
Defendant petitioned for a writ of certiorari.
Case No. 17-1108. Petitioner pointed out that “the need
for review has only intensified in the four years since
the United States submitted its brief in Nathan,” citing
United States ex rel. Chorches v. Am. Med. Response,
Inc., 865 F.3d 71, 92 n.21 (2d Cir. 2017) (noting that its
standard is “distinguishable from that of Grubbs). As
stated by Respondent, however, the very question
presented in Nargol – whether relator can satisfy Rule
9(b) without alleging details about any specific false

26
claim – was one the First Circuit did not address. As
such, the case was not an appropriate vehicle for this
Court’s review.
In United States ex rel. Ibanez v. Bristol-Myers
Squibb Co., 874 F.3d 905, 914-16 (6th Cir. 2017), cert
denied 138 S.Ct. 2582 (U.S., May 29, 2018), the Sixth
Circuit persisted in its views that, outside “limited
circumstances,” relators alleging “complex and far
reaching” schemes must plead details not only of the
scheme, but must “identify a representative false claim
that was actually submitted to the government.” 874
F.3d at 915 (quoting Chesbrough v. VPA, P.C., 655 F.3d
461, 470 (6th Cir. 2011)). That narrow exception for
“relaxing” pleading standards applies only where an
“insider” relator has “specific personal knowledge” of a
defendant’s billing practices. See United States ex rel.
Prather v. Brookdale Senior Living Cmtys., Inc., 838
F.3d 750, 769 (6th Cir. 2016). Thus, even where the
Sixth Circuit might be willing to relax Rule 9(b)
requirements in a False Claims Act case, it would not
do so for relators such as Perry who were outsiders to
the claim submissions. In Ibanez, relator petitioned for
a writ of certiorari (No. 17-1399), arguing that the
Sixth Circuit’s entrenched views continued the Circuit
schism, and conflicted with Tellabs v. Makor Issuer
Rights, 551 U.S. 308, 324 (2007) (applying Rule 9(b) to
the Private Securities Litigation Reform Act).
A relator also petitioned the Court for a writ of
certiorari in United States ex rel. Chase v. HPC
Healthcare, Inc., No. 17-1477, seeking review of the
Eleventh Circuit’s rigid view of the Rule 9(b) expressed
at 723 F. App'x 783, 790 (11th Cir. 2018), cert denied

27
139 S.Ct. 69 (U.S., Oct. 1, 2018). That rigid view –
followed by the Fourth, Sixth and Eighth Circuits as
well, requires relators to allege or show “representative
samples” specifying time, place, and content of the
claims and the identity of those submitting them to the
government. Although the Ninth Circuit had been
thought to be an adherent to “more flexible” Rule 9(b)
standards, this very same view was adopted by the
district court judges who dismissed Perry’s complaint,
as well as the dissenting panelist in Perry’s first appeal
to the Ninth Circuit. Although the persistent circuit
divide was presented by the petition in Chase, as
pointed out in respondent’s requested Brief in
Opposition, the “rigid view” of Rule 9(b) in the False
Claims Act case was not outcome-determinative, as the
complaint would have failed in any circuit. See Brief in
Opposition, at 16 (quoting U.S. Nathan Br.).
Although there might have been some hope at
the time of Nathan that the conflict might go away on
its own, retreat by some circuits with respect to its
“rigid” views towards a more “nuanced case-by-case”
approach does not mean the lower courts can, or will,
resolve it without this Court’s intervention. Even
under a case-by-case method, lower courts and litigants
require uniformity in the rule of law on standards to
apply in those individualized determinations. No
circuit court which held one view or the other has
expressly overruled its prior decisions under Rule 9(b),
and expressions of hope for self-resolution have been
posited only by judges of one circuit regarding the
views of others. See Prather, 838 F.3d at 772-773;
Chorches, 865 F.3d at 89. This unexplained shifting of

28
decisions within certain circuit courts does little to
quell the need for guidance on this important gateway
issue in False Claims Act cases.
Perry’s treatment under shifting and conflicting
opinions within the circuit illustrates the point. As
stated in the most recent petition on topic:
The Ninth Circuit, meanwhile, has
vacillated between excusing relators from
the particularity requirement and
refusing to do so. For example, in United
States ex rel. Lee v. SmithKline Beecham,
Inc., the circuit held that “Rule 9(b) may
be relaxed to permit discovery in a
limited class of corporate fraud cases
where the evidence of fraud is within a
defendant’s exclusive possession.” 245
F.3d 1048, 1052 (9th Cir. 2001). Nearly a
decade later, the Ninth Circuit appeared
to reverse course, rejecting a relator’s
argument for a relaxed pleading standard
because the defendant exclusively
possessed patient billing information.
[Ebeid, 616 F.3d at 999] (“To jettison the
particularity requirement simply because
it would facilitate a claim by an outsider
is hardly grounds for overriding the
general rule, especially because the FCA
is geared primarily to encourage insiders
to disclose information necessary to
prevent fraud on the government.”). The
Ebeid court conceded, though, that “in the
securities fraud context we have held that

29
‘Rule 9(b) may be relaxed to permit
discovery.’ ” Id. (quoting Lee, 245 F.3d at
1052).
Yet nearly a decade after Ebeid, a Ninth
Circuit panel excused a relator from the
particularity requirement because “the
relevant information [was] within the
defendant’s exclusive possession and
control.” [Vatan, 721 F. App’x at 663-64]
(“The district court’s requirement to the
contrary would vitiate the False Claims
Act, by excluding many whistle-blowers
who – as here – allege insider knowledge
of wrongdoing that few others would be
positioned to reveal and solely lack access
to the corporate documents outlining the
precise nature of the company’s
obligations.” [Petition for a Writ of
Certiorari, United States ex rel. Polukoff
v. St. Mark's Hosp. No. 18-911, at 14-15.]
The Petition in Polukoff was withdrawn after
the case settled, but the description of the vacillation
within the Ninth Circuit presciently captured the
essence of Perry’s petition. Perry cited Lee, Vatan and
United States v. United Healthcare Ins. Co., 848 F.3d
1161 (9th Cir. 2016) to no avail. Perry still lost his
claims – asserted on behalf of the United States –
based upon lack of personal knowledge over particulars
that had little or no significance. Courts should not
administer justice on an important statute through
such conflicting and contradictory standards.

30
II.

This Case is the Best Vehicle Yet to Resolve
Persistent Conflicts and Intolerable
Uncertainties in the False Claims Act
Arena

Perry is a model relator. At significant personal
and professional peril, he called out detailed
information regarding material falsities and fraud by
highway and bridge contractors working on federallyfunded projects, and he backed up his claims with
volumes of documentation. When ODOT management
ignored his warnings, he turned to state and federal
officials. In 2005, he met with the late state legislator
Ben Westlund; in 2006, with the Fraud Division of the
Oregon Secretary of State; in 2007, with the Federal
Bureau of Investigation; and on dates thereafter with
the Department of Justice. App. 44a, ¶7.
Although he did not have access to the actual
contractor invoices, such documents were not needed
for him to raise allegations of False Claims Act
violations. He could determine, based on available
data, the general range of dates on which the claims
were made, the total amounts claimed and paid, the
specific projects for which the invoices were submitted,
and the general process for their submission. But what
he alone knew – or was willing to act on – was the
conduct giving rise to the violations, occurring in the
field, not in billing departments. A clerk with access to
the invoices would not know what Perry knew. The
lower courts’ determinations that Perry cannot be a
relator under the Act because he did not have access to
the billing records means that no one could bring an

31
action against these highway construction contractors
for the misconduct Perry alleges occurred here.
A central purpose of the regulatory scheme for
highway construction is to ensure that public money
expended on vital infrastructure is spent only on
projects which meet the federal safety and durability
mandate embodied in the Transportation Act. 23
U.S.C. §109 (requiring adoption of construction
standards adequate to enable highway projects to
accommodate anticipated traffic on each project for a
20-year period). Perry alleges the contractors’ failure to
supply conforming materials, refusal to truthfully
report Quality Control, and fraudulent conduct on
highway contracts, has led to the United States paying
for a system of federally-funded roads and bridges in
Oregon that suffers from premature wear, excessive
safety concerns and high repair and replacement costs.
As demonstrated in Perry’s Request for Judicial Notice
– granted by the Ninth Circuit panel App. 1a – forensic
investigations performed after Perry’s complaint was
filed confirm that premature failures and observable
“rutting” in Oregon’s highways and bridges are linked
to substandard construction of the sort he witnessed.
Over the past several years a number of
major interstate pavements in Oregon
exhibited significant pavement distress
that appeared to be associated with
moisture damage within months or the
first few years following a rehabilitation
activity. These premature failures
prompted the Oregon Department of
Transportation (ODOT) to sponsor a

32
study to investigate several projects on
interstate highways to determine the
conditions and mechanisms that led to
the premature failures. ... Improper tack
coat or failure, permeable dense-graded
layers, stripping, inadequate drainage,
and inadequate compaction of
dense-graded material were identified as
the likely root causes of the observed
rutting problems.
Scholz, “Forensic Investigation of Moisture-Related
Pavement Failures on Interstate Highways in Oregon,”
Transportation Research Board, 90th Ann. Mt. (2011).
Perry’s third amended complaint fits squarely
within the ambit of the Act, as interpreted by this
Court’s decision in Escobar, 136 S. Ct. 1989. Although
Escobar was issued shortly after Perry filed his
complaint, he had the benefit of the briefing and oral
argument. There, a relator accused a hospital of
submitting state Medicaid claims for counseling
services when the counselors lacked required
credentials. Id. at 1998. While the claim forms
themselves did not contain representations regarding
staff credentials, the Court explained that “half truths”
are actionable. Id. at 2000. This is because “[a]nyone
informed that a social worker” had provided services
“would probably – but wrongly – conclude that the
clinic had complied with core” requirements. Id. The
Court held when “a defendant makes representations
in submitting a claim but omits its violations of
statutory, regulatory, or contractual requirements,
those omissions can be a basis for liability if they

33
render the defendant’s representations misleading
with respect to the goods or services provided.” Id. at
1999.
The Court’s decision in Escobar to recognize
viability of false implied certification claims follows on
a long line of cases involving contract specifications.
See United States v. Science Applications Intern’l Corp.
(SAIC), 626 F.3d 1257, 1269 (D.C. Cir. 2010) (noncompliance with contractual obligations provides basis
for violation, whether or not provisions expressly state
compliance is a precondition of payment); United
States v. Aerodex, 469 F.2d 1003 (5th Cir. 1972)
(contractor’s deliberate mislabeling of bearings under
specifications violated the Act); United States v.
National Wholesalers, 236 F.2d 944 (9th Cir. 1956)
(knowing supply of regulators not in compliance with
contract specifications provided basis for False Claims
Act violations), cert. denied 353 U.S. 930 (1957). This
includes contractors on federal highway projects who
submit bills for substandard work. See United States
DOT ex rel. Arnold v. CMC Eng’g, 564 F.3d 673, 678
(3rd Cir. 2009) (false billings by highway contractors to
Pennsylvania DOT); United States ex rel. Maxfield v.
Wasatch Constructors, 2005 U.S. Dist. LEXIS 10162
(D. Utah 2005) (“compromised concrete, bridge
construction defects and inadequate compaction” used
in federal projects).
A review of these and other cases demonstrates
that Perry’s claims fit squarely within the ambit of the
Act. In United States ex rel. Compton v. Midwest
Specialties, 142 F.3d 296 (6th Cir. 1998), the Sixth
Circuit affirmed the grant of summary judgment in

34
favor of the Government, based on proof that contract
provisions required the contractor to conduct quality
control brake tests, and defendant had failed to
produce evidence such tests were properly conducted.
Whether or not the brakes met specifications, under
the quality assurance and safety requirements of the
contract, the contractors were required to conduct the
tests. Id., 142 F.3d at 302. Noting “parties that
contract with government are held to the letter of the
contract” and “men must turn square corners when
they deal with the Government,” the court held that
defendants’ violations of the False Claims Act were
undisputed matters of law. Id.
In Varljen v. Cleveland Gear Co., 250 F.3d 426
(6th Cir. 2001), the court held “failure to comply with
government contract specifications can result in an
FCA ‘injury’ to the government, even if the supplied
product is as good as the specified product.” Even if the
government knew of the fraud and accepted the
product as compliant, defendants would still be liable
for the violations. Id., at 430 (citing United Sates ex rel.
Hagood v. Sonoma County Water Agency, 929 F.2d
1416, 1421 (9th Cir. 1991)). And see Aerodex, 469 F.2d
at 1009 (“Even where final inspection is the obligation
of the government, such obligation does not absolve a
contractor on liability for fraud”).
Like the allegations by Perry and in Compton,
the claim in Cleveland Gear involved the defendants’
knowing failure to comply with quality assurance. 250
F.3d at 431. “The allegation that Cleveland Gear did
not comply with this provision amounts to an
allegation that, through fraud, it knowingly produced

35
products that did not meet the contract’s quality and
corresponding safety requirements.” Id. The court
found undisputed that Cleveland Gear caused to be
submitted a “claim” to the government, saying it was
immaterial whether the alleged contractual
noncompliance resulted in products with the “same
basic performance characteristics” as those that would
have been produced in compliance with the terms of
the contract. Id.
Given the important role Perry fulfills – as
envisioned by Congress in enacting and amending the
False Claims Act – he should be permitted to go
forward on his qui tam claims. They fit squarely within
the scope of the Act. The detailed information gathered
by Perry prior to the filing of his action and pleaded in
his amended complaint is more than sufficient to meet
the twin purposes Rule 9(b) – to put defendants on
notice as to the particular misconduct alleged, and to
protect defendants against undue “fishing expeditions.”
Despite all of this, Perry’s claims were dismissed
by the lower courts based upon their determination
that Perry was not an insider with personal knowledge
of defendants’ invoices. This failure to identify
minutiae of contractor billings – the exact dates
invoices were submitted, the identity of the persons
who prepared them – is the basis for the judgment
below. A review of the Ninth Circuit’s decision in this
case would reinstate Perry’s meritorious claims and
provide the best vehicle yet for this Court to resolve a
persistent, recurring dispute among the lower courts
over a matter of national significance.

36
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Jeremy L. Friedman
Counsel of Record
2801 Sylhowe Road
Oakland, CA 94602
(510) 530-9060

August 19, 2019

Derek Johnson
Johnson, Johnson and
Schaller, PC.
975 Oak Street, #1050
Phoenix, AZ 85028
(602) 222-4160
Counsel for Petitioner

